Appendix

la
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 17th day of
October, two thousand and nineteen,
Before:

GUIDO CALABRESI,
RAYMOND J. LOHIER, JR.,
MICHAEL H. PARK,
Circuit Judges.

IVON CASTRO,
Plaintiff -Appellant,

ORDER
Docket No.
19-327

DINA SIMON,
INDIVIDUALLY AND AS
DEPUTY COMMISSIONER,
NEW YORK CITY
DEPARTMENT OF CORRECTION,
ELIZABETH CASTRO, CORRECTION
OFFICERS’ BENEVOLENT
ASSOCIATION, INC., STEVEN ISAACS,
MERCEDES MALDONADO, KOEHLER &
ISAACS LLP, CITY OF NEW YORK,
Defendants - Appellees.

2a
Appellant having filed a petition for panel
rehearing and the panel that determined the appeal
having considered the request,
IT IS HEREBY ORDERED that the petition is
DENIED.

FOR THE COURT:
/s/
Catherine O’Hagan Wolfe, Clerk of Court
[SEAL]

3a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 1st day of
October, two thousand nineteen.
PRESENT:

GUIDO CALABRESI,
RAYMOND J. LOHIER, JR.,
MICHAEL H. PARK,
Circuit Judges.

4a
IVON CASTRO,
Plaintiff-Appellant,
DINA SIMON, INDIVIDUALLY
AND AS DEPUTY COMMISSIONER,
ELIZABETH CASTRO, CORRECTION
OFFICERS’ BENEVOLENT
ASSOCIATION, INC., STEVEN
ISAACS, MERCEDES MALDONADO,
KOEHLER & ISAACS LLP, CITY OF
NEW YORK,
Defendants-Appellees*
FOR APPELLANT:

Ivon Castro, pro se,
Bronx, N.Y.

FOR APPELLEES:

Fay Sue Ng, Barbara
Jeane Graves-Poller, Of
Counsel, for Zachary W.
Carter, Corporation
Counsel of the City of New
York, New York, NY, for
Dina Simon and City of
New York
Howard Wien, Koehler &
Isaacs LLP, Steven Isaacs,
and Mercedes Maldonado

'The Clerk of Court is directed to amend the official caption as
shown above.

5a
Appeal from a judgment of the United States
District Court for the Eastern District of New York
(Ann M. Donnelly, Judge).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the District Court is AFFIRMED.
Ivon Castro, proceeding pro se, appeals from a
judgment of the District Court (Donnelly, JJ
dismissing her amended complaint. On appeal,
Castro challenges only the District Court’s dismissal
of her claims against Dina Simon and the City of
New York for violating 42 U.S.C. § 1983 and New
York Civil Service Law §75. Those claims arose from
her termination, allegedly without a hearing as a
Correction Officer with the New York City
Department of Correction.*1 We assume the parties’
familiarity with the underlying facts and prior record
of proceedings, to which we refer only as necessary to
explain our decision to affirm.
We review de novo the dismissal of a complaint
pursuant to Rule 12(b)(6), accepting the factual
allegations of the complaint as true. See Forest Park
1 In her appellate brief, Castro abandons any claims against
Defendants-appellants Castro, Correction Officers’ Benevolent
Association, Inc., Koehler & Isaacs LLP, Isaacs, and
Maldonado. Her Brief does not address the District Court’s
dismissal of her § 1983 liberty interest claim, the dismissal of
any equal protection claims, or the decision not to exercise
supplemental jurisdiction over state law claims. We therefore
deem any challenges on these grounds to be abandoned also.
See LoSacco v. City of Middletown. 71 F.3d 88, 93 (2d Cir.
1995).

6a
Pictures v. Universal Television Network. Inc.. 683
F.3d 424, 429 (2d Cir. 2012). A pro se complaint must
be “liberally construe[d] ... to raise the strongest
arguments it suggests.” Abbas v, Dixon. 480 F.3d
636, 639 (2d Cir. 2007).
The District Court dismissed Castro’s due process
and New York Civil Service Law claims on the
ground that, as a probationary employee at the time
of her termination, Castro lacked a property interest
in her continued employment and section 75 did not
apply to her. In determining that Castro was a
probationary employee, the District Court relied in
part on documents attached to the defendants’
motion to dismiss, which indicated that Castro’s
initial probationary period had been extended
through the day after her termination. These
documents were not “integral” to Castro’s complaint
or subject to any other exception that would have
permitted the District Court to consider them on a
motion to dismiss. See Chambers v. Time Warner.
Inc.. 282 F.3d 147, 153 (2d Cir, 2002). The better
course would have been to convert the motion to one
for summary judgment, see Fed. R. Civ. P. 12(d), or
to exclude the documents from consideration, see
Palin v. N.Y. Times Co.. 933 F.3d 160, 167 (2d Cir.
2019). Nonetheless, even without the defendants’
exhibits, documents incorporated into and attached
to Castro’s amended complaint show that she was a
probationary employee at the time of termination.
Although Castro disputes whether the 24-month

7a
probationary period was applicable to her as a
matter of the City personnel rules, she has not
argued—either before the District Court or on appeal
—that the 24-month probationary period and
relevant extension had in fact expired prior to her
termination. We therefore affirm, on this alternative
ground, the District Court’s decision to dismiss
Castro’s due process and section 75 claims.*2 With
respect to Castro’s arguments under Rule 5.2.7(c) of
the Personnel Rules of the City of New York, we
affirm substantially for the reasons stated by the
District Court.
Castro further argues that, even if she had been
on probation, she was entitled to a hearing under In
re Perry. 374 N.Y.S.2d 850 (4th Dep’t 1975), because
the allegations of misconduct leading to her
termination affected her reputation. But Perry
involved a termination “predicated upon
considerations reaching beyond the scope of [the
probationary employee’s] job performance,” and the
hearing in that case was required on that ground. IcL
at 855. Castro’s termination was based entirely on
allegations of job-related misconduct.
Castro’s argument that her termination was void
because the termination letter was not issued

*2 Because we affirm on this ground, we need not consider the
District Court’s alternative holding that, even if Castro had a
protected property interest in continued employment, the
availability of a post-deprivation hearing through Article 78
proceedings satisfied due process.

8a
directly by the Commissioner of Correction has
previously been considered and rejected by New York
State courts. See e.g.. In re Gagedeen, 96 N.Y.S.3d
349, 351-52 (2d Dep’t 2019); In re Meighan, 77
N.Y.S.3d 871, 872 (2d Dep’t 2018).
We have considered Castro’s remaining
arguments and conclude that they are without merit.
For the foregoing reasons, the judgment of the
District Court is AFFIRMED.
FOR THE COURT:
/s/

Catherine O’Hagan Wolfe, Clerk of Court
[SEAL]

9a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
IVON CASTRO,
Plaintiff,
-againstDINA SIMON, Individually
and as Deputy Commissioner;
ELIZABETH CASTRO, 2nd
Vice President;
CORRECTION OFFICERS’
BENEVOLENT
ASSOCIATION, INC.;
STEVEN ISAACS, Attorney;
MERCEDES MALDONADO,
Attorney; KOEHLER &
ISAACS LLP; and the CITY
OF NEW YORK,
Defendants.

JUDGMENT
17-CV-6083
(AMDXLB)

A Memorandum and Order of Honorable Ann
M. Donnelly, United States District Judge, having
been filed on January 7, 2019, granting the Union
defendants’ and Firm defendants’ motion to dismiss
the amended complaint; and granting the City
defendant’s motion to dismiss; it is
ORDERED and ADJUDGED that the Union
defendants’ and Firm defendant’s motion to dismiss
the amended complaint is granted; and that the City
defendant’s motion to dismiss.

10a
Dated: Brooklyn, NY
January 10, 2019

Douglas C. Palmer
Clerk of Court
By:

/sIJalitza Poveda
Deputy Clerk

11a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
IVON CASTRO,
Plaintiff,
-againstDINA SIMON, Individually
and as Deputy Commissioner;
ELIZABETH CASTRO, 2nd
Vice President;
CORRECTION OFFICERS’
BENEVOLENT
ASSOCIATION, INC.;
STEVEN ISAACS, Attorney;
MERCEDES MALDONADO,
Attorney; KOEHLER &
ISAACS LLP; and the CITY
OF NEW YORK,
Defendants.

MEMORANDUM
AND ORDER
17-CV-6083
(AMDXLB)

ANN M. DONNELLY, District Judge.
The plaintiff brought this action against the
defendants—Correction Officers’ Benevolent
Association (“COBA”) and Elizabeth Castro (together
with COBA, the “Union defendants”), Koehler &
Isaacs LLP, Steven Isaacs, and Mercedes Maldonado
(the “Firm defendants”), and Dina Simon and the
City of New York (the “City defendants”). The
plaintiff filed an amended complaint, asserting

12a
claims pursuant to 42 U.S.C. § 1983 and New York
Civil Service Law Section 75, alleging that the City
defendants unlawfully terminated her employment
as a correction officer, and that the Firm defendants
and Union defendants failed to assist her in her
attempt to get her job back. (ECF No. 21.) The Union
defendants and the Firm defendants moved to
dismiss the amended complaint for failure to state a
claim upon which relief can be granted and lack of
jurisdiction, and the City defendants moved to
dismiss for failure to state a claim. (ECF Nos. 24,
26.) For the reasons set forth below, the defendants’
motions to dismiss the amended complaint are
granted.

BACKGROUND!
The plaintiff is a former correction officer in
the New York City Department of Correction (ECF
No. 21 'ftl.) She became a correction officer in August
2008, and was appointed by permanent appointment,
subject to a probationary term, on September 6,
2012. {Id. 'll 21.) The plaintiff signed a Notice of
Conditions of Probation on August 1, 2012, in which

1 The facts are drawn from the allegations in the plaintiffs
Amended Complaint, documents incorporated by reference into
the complaint, and documents integral to the complaint. See
Chambers v. Time Warner, Inc., 282 F.3d 147, 152 (2d Cir.
2002). I draw all reasonable inferences in the plaintiffs favor,
and accept the factual allegations in the complaint as true for
purposes of this motion. See Town of Babylon v. Fed Hous. Fin.
Agency, 699 F.3d 221, 227 (2d Cir. 2012).

13a
she acknowledged that the probationary period of
her employment was 24 months and “may be
extended” by the number of days that she did not
“perform the duties of [her] position.” (ECF No. 24-1
at 26; see also ECF No. 21 ^[ 132.)
In November of 2013, the Department of
Correction charged the plaintiff with failing to
perform her duties and failing to submit a report.
(ECF No. 21
45-46.) The plaintiff lost two days as
penalty for these charges. (Id. 48.)
About six months later, the Investigative
Division sent the plaintiff an Interdepartmental
Memorandum telling her to appear before the
division the next day. (Id. f 55.) At that interview,
investigators told the plaintiff that in September of
2013 an inmate died at the Anna M. Kross Center on
Rikers Island, at a time when the plaintiff was
assigned to a “meal relief post.” (Id. CH<][ 56, 58.) The
investigators questioned the plaintiff about her
conduct on September 6 through September 9, 2013.

(Id.)
On October 3, 2014, the plaintiff’s
probationary period was extended until April 2,
2015, because of her “punctuality and disciplinary
records.” (ECF No. 24-1 at 33.) The plaintiff signed a
Notice of Extension of Probation Period,
acknowledging the extension. (Id.)
The plaintiff was subsequently subpoenaed to
appear before a grand jury on February 10, 2015, in
relation to the death of the inmate, and was served

14a
with a notice of charges and specifications on March
2, 2015. (Id. M 63, 71.) The plaintiff denied any
wrongdoing and requested “a review of the charges
and evidence to prevent any unwarranted action
against” her. (Id. <j[ 75.) The plaintiff mailed her
answer to the address listed on the notice of charges
—60 Hudson Street, New York, NY 10013. (Id. 73.)
Her answer was returned by the U.S. Post Office as
undeliverable. (Id. ‘ft 74.) On April 2, 2015,
Defendant Dina Simon, Deputy Commissioner of the
NYC Department of Correction, terminated the
plaintiffs employment by letter without a hearing.
(Id. M 2, 14, 80, 83.)
The plaintiff then contacted defendant COBA,
which referred her to defendant Koehler & Isaacs, a
firm that COBA retained to represent correction
officers in employment matters. (Id. M 19, 89.) The
plaintiff and a COBA delegate met with defendant
Steven Isaacs, an attorney at Koehler & Isaacs, on
April 6, 2015, and asked Isaacs to file an Article 78
petition. (Id.
17, 91-92.) Isaacs said that he would
look into the matter, and told the plaintiff to get
character references from her captains. (Id. ‘I 96.)
Later that month, the plaintiff met with
defendant Mercedes Maldonado, another attorney at
Koehler & Isaacs. (Id.
18, 97.) Ms. Maldonado told
the plaintiff that “there was nothing that the firm
could do for her because she was on probation,” and
that the firm would not initiate an Article 78
proceeding. (Id. 98.)

15a
The plaintiff then asked defendant Elizabeth
Castro, Second Vice President of COBA, for
assistance. {Id. (R<|[ 15, 99.) Ms. Castro said she would
call Isaacs to find out why they did not commence
the Article 78 proceeding. {Id. ^1 99.) The plaintiff
followed up with Castro “over the course of a few
months,” but Castro stopped communication with
her. {Id.
102.) A COBA delegate told the plaintiff
that COBA’s First Vice President, Israel Rexach, had
remarked that ‘“we give them some and they let us
keep some”; (referring to correction officers, and
COBA’s practice of allowing the City to unlawfully
dismiss from service some of them, but keep select
ones that COBA vouched for).” {Id. *][ 106.)
The plaintiff contends that Richard J. Koehler
—head of defendant Koehler & Isaacs and former
Commissioner of the Department of Correction— “is
a link between the City and COBA and ... still works
for the City through his law firm by allowing
thousands of correction officers with tenure in their
employment to be unlawfully dismissed from service
without due process of law.” {Id. M 109-10.)
The plaintiff commenced this action against
the defendants on October 18, 2017. (ECF No. 1.) The
City defendants filed a motion to dismiss the
complaint on December 7, 2017, and the Union
defendants and Firm defendants filed a motion to
dismiss on December 14, 2017. (ECF Nos. 9, 13.) On
February 12, 2018, the plaintiff amended her
complaint, asserting claims pursuant to § 1983, the

16a
Fourteenth Amendment of the United States
Constitution, and Civil Service Law Section 75, and
that the Firm defendants and Union defendants
failed to help her get her job back. (ECF No. 21.) The
defendants move to dismiss the amended complaint.
(ECF Nos. 24, 26.)
LEGAL STANDARD
To survive a motion to dismiss under Rule
12(b)(6, a complaint must allege sufficient facts
which, taken as true, state a plausible claim for
relief. See Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555-56 (2007). A court considering a motion to
dismiss must accept all factual allegations in the
complaint as true and draw all reasonable inferences
in the plaintiffs favor. Town of Babylon v. Fed. Hous.
Fin. Agency, 699 F.3d 221, 227 (2d Cir. 2012). A court
is not required to credit “mere conclusory
statements” or “threadbare recitals of the elements of
a cause of action.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citing Twombly, 550 U.S. at 555). A claim
has facial plausibility when it “pleads factual content
that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged;” the plausibility standard
requires more that “a sheer possibility that a
defendant has acted unlawfully.” Id. (citing
Twombly, 550 U.S. at 556, 570). “Where a complaint
pleads facts that are ‘mere consistent with’ a

17a
defendant’s liability it ‘stops short of the line
between possibility and plausibility of ‘entitlement to
relief.’” Id. (citing Twombly, 550, U.S. at 557).
A court must “liberally” construe a pro se
plaintiffs complaint “to raise the strongest
arguments that [it] suggest [s],” Sykes u. Bank of Am.,
723 F.3d 399, 403 (2d Cir. 2013), and must hold it “to
less stringent standards than formal pleadings
drafted by lawyers.” Nguyen v. Ridgewood Sav.
Bank, 66 F. Supp. 3d 299, 303 (E.D.N.Y. 2014)
(quoting Hughes v. Rowe, 449 U.S. 5, 9 (1980)). This
“liberal treatment,” however, does not “exempt a pro
se party from compliance with relevant rules of
procedural and substantive law.” Bell v. Jendell, 980
F. Supp. 2d 555, 559 (S.D.N.Y. 2013) (internal
citation and quotation marks omitted). The court
“need not argue a pro se litigant’s case nor create a
case for the pro se which does not exist,” Molina v.
New York, 956 F. Supp. 257, 259 (E.D.N.Y. 1995),
and must not dismiss a claim “[w)hen a pro se
litigant has altogether failed to satisfy a pleading
requirement.” Malachi v. Postgraduate Ctr. for
Mental Health, No. 10-CV-3527, 2013 WL 782614, at
*1 (E.D.N.Y. Mar 1, 2013) (citing Rodriguez v.
Weprin, 116 F.3d 62, 65 (2d Cir. 1997)).
Moreover, the court is limited to the factual
allegations in the complaint, the documents attached
to the complaint as exhibits or incorporated in it by
reference, matters of which judicial notice may be
taken, and documents either in the plaintiffs

18a
possession or of which the plaintiff had knowledge
and relied on in bringing suit. Faconti v. Potter, 242
Fed. Appx. 775, 777 (2d Cir. 2010) (“Where a
document is not incorporated by reference, the court
may nevertheless consider it where the complaint
‘relies heavily upon its terms and effect,’ thereby
rendering the document ‘integral’ to the
complaint.” (quoting Mangiafico v. Blumenthal, 471
F.3d 391, 398 (2d Cir. 2006)); Staehr v. Hartford Fin.
Servs. Grp., Inc., 547 F.3d 406, 425 (2d Cir. 2008).
DISCUSSION
I.

Federal Claims
A. Private Actors

The Union defendants and Firm defendants
argue that the § 1983 claims against them must be
dismissed because as “purely private organizations”
COBA and Koehler & Isaacs and their employees are
“not subject to suit in federal court under Section
1983.” (ECF No. 24-1 at 10.) They also argue that the
Amended Complaint does not contain “plausible or
substantial allegations” that they are linked to the
government or government officials in a way that
would make them state actors, which “precludes
Plaintiffs claims under Section 1983 and the
Fourteenth Amendment.” (Id. at 12.)

19a
A claim for relief under § 1983 must allege facts
showing that the defendant acted under color of a
state “statute, ordinance, regulation, custom or
usage.” 42 U.S.C. § 1983. The “Fourteenth
Amendment!], and § 1983, apply only to state
actors.” Leeds v. Meltz, 85 F.3d 51, 54 (2d Cir. 1996).
“Because the United States Constitution regulates
only the Government, not private parties, a litigant
claiming that his constitutional rights have been
violated must first establish that the challenged
conduct constitutes state action.” Flagg v. Yonkers
Sav. & Loan Ass’n, 396 F.3d 178, 186 (2d Cir. 2005)
(quoting Brentwood Acad. v. Tenn. Secondary Sch.
Athletic Ass’n, 531 U.S. 288, 295 (2001)). This nexus
may exist where “the private actor was a willful
participant in joint activity with the State or its
agents” or where the private actor “conspire [d] with
a state official to violate the plaintiffs constitutional
rights.” Young v. Suffolk Cty., 922 F.Supp. 2d 368
(E.D.N.Y.2013) (internal quotation marks omitted).
“To establish joint acton, a plaintiff must show
that the private citizen and the state official shared a
common unlawful goal; the true state actor and the
jointly acting private party must agree to deprive the
plaintiff of rights guaranteed by federal lawAnilao
v. Spota, 114 F. Supp. 2d 457, 498 (E.D.N.Y. 2013)
(quoting Bang v. Utopia Rest., 923 F. Supp. 46, 49
(S.D.N.Y. 1996)). In other words, joint action can be
found “where a private actor has operated as a
willful participant in joint activity with the State or

20a
its agents, or acts together with state officials or with
significant state aid.” Abdullahi, 562 F.3d at 188
(citations and internal quotation marks omitted).
“Conclusory allegations or naked assertions of a joint
activity are not sufficient to survive a motion to
dismiss.” Harrison v. New York, 95 F. Supp. 3d 293,
322 (E.D.N.Y. 2015) (internal quotation marks and
alterations omitted).
To establish a § 1983 conspiracy claim, a plaintiff
must show “(1) an agreement between two or more
state actors or between a state actor and private
entity; (2) to act in concert to inflict an
unconstitutional injury; and (3) an overt act done in
furtherance of that goal causing damages.” Pangburn
v. Culbertson, 200 F.3d 65, 72 (2d Cir. 1999).
“ [CJomplaints containing only conclusory, vague, or
general allegations that the defendants have
engaged in a conspiracy to deprive the plaintiff of his
constitutional rights are properly dismissed ....”
Ciambrello v. Cty. of Nassau, 292 F.3d 307, 325 (2d
Cir. 2002); see also Walker v. Jastremski, 430 F.3d
560, 564 n.5 (2d Cir. 2005) (“[C]onclusory or general
allegations are insufficient to state a claim for
conspiracy under § 1983 ....”). Although “[a] plaintiff
is not required to list the place and date of
defendants [’] meetings and the summary of their
conversations when [she] pleads conspiracy,... the
pleadings must present facts tending to show
agreement and concerted action.” Mclntye u.
Longwood Central School Diet.-,.No 07-CV-1337, 2008

21a
WL 850263, at *11 (E.D.N.Y. Mar. 27, 2008)
(internal quotation marks and citations omitted).
The plaintiff does not deny that the Union
defendants and Firm defendants are private persons
or entities, but argues that they “acted in concert
with the City Defendants to deprive [her] or her
property rights.” (ECF No. 33 at 1.) The complaint
. includes only two allegations of concerted action,
neither of which is sufficient to make the necessary
showing. The first allegation is based on vague,
third-hand information from a union delegate—that
former First Vice President of COBA “once told” the
delegate that “‘we give them some and they let us
keep some’; (referring to correction officers, and
COBA’s practice of allowing the City to unlawfully
dismiss from service some of them, but keep select
ones that COBA vouched for).” (ECF No. 21 ]{ 106.)
The second allegation is just an accusation without
any factual content—that Richard Koehler “is a link
between the City and COBA and ...still works for the
City through his law firm by allowing thousands of :
correction officers with tenure in their employment
to be unlawfully dismissed from service without due
process of law.” {Id. TC 109-10.) These allegations do
not state a joint action or conspiracy claim under §
1983. The plaintiff does not specify what the Union
defendants or Firm defendants did in furtherance of the alleged conspiracy or how them deprived her of
her rights, nor does she sufficiently allege a
connection to a state actor. In other words, the

22a
plaintiff does not make anything beyond mere
“conclusory” or “vague” allegations that the Union
defendants and Firm defendants acted jointly or
conspired with the City defendants to deprive the
plaintiff of her constitutional rights. See Ciambriello,
292 F.3d at 324 (“A mere conclusory allegation that a
private entity acted in concert with a state actor does
not Suffice to state a § 1983 claim against the private
entity.”).
Accordingly, the plaintiffs § 1983 claims against
the Union defendants and Firm defendants are
dismissed.
B. Due Process Clause of the Fourteenth
Amendment
The complaint alleges that defendant City of New
York improperly eliminated the two-month probation
period set forth in Civil Service Law Section 63, and
that defendant Simon deprived the plaintiff “of her
property and liberty interests in her tenured civil
service position without due process” by
“terminating] her employment without notice and a
hearing.” (ECF No. 21 M 122-24.)
The City defendants argue that the plaintiff was
a probationary employee, and thus had no property
interest, (ECF No. 28 at 13-15.) They also argue that
she was given due process, because she could have
instituted an Article 78 proceeding. (Id. at 16-17.)

23a
“In order to prevail on a Section 1983 claim for
violation of the procedural due process rights
guaranteed by the Fourteenth Amendment, the
plaintiff must show (1) that [she] possessed a
protected liberty or property interest; and (2) that
[she] was deprived of that interest without due
process.” Jackson u. Roslyn Bd. of Educ., 652 F.
Supp. 2d 332, 338 (E.D.N.Y. 2009) (citing McMenemy
v. City of Rochester, 241 F.3d 279, 285-86 (2d Cir.
2001)). The Constitution does not create property
interests; property interests “are created and their
dimensions are defined by existing rules or
understandings that stem from an independent
source such as state law—rules or understandings
that secure certain benefits and that support claims
of entitlement to those benefits.” Bd. of Regents of
State Colls, v. Roth, 408 U.S. 564, 577 (1972). To
have a property interest in her employment, an
employee must have “a true and legitimate claim of
entitlement” to it. Jackson, 652 F. Supp. 2d at 338.
“A public employee has a property interest in
continued employment if the employee is guaranteed
continued employment absent ‘just cause’ for
discharge.” Ciambriello, 292 F.3d at 313. However,
when the employment is probationary, the public
employee does not have a property interest in
continued employment. Donato v. Plainview-Old
Bethpage Central Sch. Dist., 96 F.3d 623, 629-30 (2d
Cir. 1996).

24a
Although the plaintiff argues that her
probationary period expired after two months, the
record is clear that her initial probationary period
was 24 months, and was extended to April 3, 2015.
(See ECF No. 21 at 30; ECF No. 24-1 at 26, 33.) The
plaintiff was terminated on April 2, 2015, (ECF No.
21 *1 80), one day before her probationary period
expired. She therefore did not have a property
interest in her continued employment at the time of
her termination. See Donato, 96 F.3d at 629-30.
Citing Rule 5.2.7(c) of the Personnel Rules of the
City of New York and Albano v. Kirby, 36 N.Y.2d 526
(1975), the plaintiff argues that her probationary
term expired after two months. Rule 5.2.7(c) provides
that “[t]he specified minimum period of probationary
service, unless otherwise set forth in the terms and
conditions of the certification for appointment or
promotion as determined by the commissioner of
citywide administrative services, shall be: (1) two
months...” (ECF No. 21 f 25.) But Rule 5.2.7(c)
specifically allows the City defendants to extend the
probationary term beyond the two-month minimum,
which they did in this case. The terms and conditions
of the certification of the plaintiffs appointment set
the probationary term as 24 months, and the term
was subsequently extended to April 3, 2015. (See
ECF No. 24-1 at 26, 33.) Albano v. Kirby, 36 N.Y.2d
526 (1975), does not help the plaintiff, because it
involved a Suffolk County regulation providing that
appointments became permanent at the end of a

25a
minimum probationary term unless the employee
received written notice of the extension of the term.
See Albano, 36 N.Y.2d at 533. There is no similar
provision in the regulations at issue here. See Cancel
v. N.Y.C. Human Res. Admin./Dep’t of Soc. Servs.,
No. ll-CV-9725, 2015 WL 505404, *2 (S.D.N.Y. Feb.
6, 2015). In any event, the plaintiff was notified on at
least three different occasions that her probationary
period had been extended. (See ECF No. 21 at 30;
ECF No. 24-1 at 26, 33.)
Even if the plaintiff had a property interest in her
continued employment, her due process claim
nevertheless fails because the availability of Article
78 proceedings satisfy the post-deprivation due
process requirement. See Negron u. City of New York,
No. 10-Civil Service Law Section 75-2757, 2011 WL
4737068, *19 (E.D.N.Y. Sept. 14, 2011); Davis v. City
of New York, No. 06-CV-3323, 2007 WL 2973695, at
*5 (E.D.N.Y. Sept. 28, 2007) (“[I]t is well established
that an Article 78 proceeding is a perfectly adequate
post-deprivation remedy in the context of
employment termination.” (internal quotation marks
omitted)); McDonald v. Bd. of Educ. of City of New
York, No. 01-CV-1991, 2001 WL 840254, at *6
(S.D.N.Y. July 25, 2001) (“Constitution does not
require the State to conduct a pre-termination
hearing to determine the tenure status plaintiff
failed to assert.”).
Accordingly, the plaintiffs due process claim
under the Fourteenth Amendment is dismissed.

26a
C. Liberty clause of the Fourteenth Amendment
The plaintiff alleges that she was deprived of her
liberty interest under the Fourteenth Amendment
because her “good name, reputation, honor and
integrity have been forever damaged.” (ECF No. 21 f
138.) She asserts that the defendants’ actions caused
her to lose her career, “the value of being a city
employee union-member,” her pension, her past
salaries, and other employment benefits. (Id.)
The City defendants argue that this claim must
fail because the plaintiff does not allege that they
“(1) made stigmatizing statements about her, (2)
published those statements, or (3) made the
statements concurrently with her termination.” (ECF
No. 28 at 18.) They also contend that the plaintiffs
liberty interest was not deprived without due process
because an Article 78 proceeding was available to the .
plaintiff after her termination. (Id. at 18-19.)
“For a government employee, a cause of action
under Section 1983 for deprivation of a liberty
interest without due process of law may arise when
an alleged government defamation occurs in the
course of dismissal from government employment.”
Press v. Oceanside Union Free Sch. Dist., 426 F.
Supp. 2d 15, 27 (E.D.N.Y. 2006) (citing Patterson u.
City of Utica, 370 F.3d 322, 330 (2d Cir. 2004)). To
make out a plausible “stigma-plus” claim, the
plaintiff must show (1) that the government made
stigmatizing statements that call the plaintiffs “good

27a
name, reputation, honor, or integrity” into question,
(2) that these statements were made public, and (3)
that the statements were made “concurrently in
time” to the plaintiffs dismissal. Id. “However, a
finding of a violation of an employee’s liberty interest
is appropriate only if the terminating agency’s
officials made [the stigmatizing] statement about the
terminated employee without affording the employee
a hearing at which to rebut those charges.” Thomas
v. Held, 941 F. Supp. 444, 450 (S.D.N.Y. 1996) (citing
Wisconsin v. Constantineau, 400 U.S. 433, 436
(1971); Quinn v. Syracuse Model Neighborhood
Corp., 613 F.2d 438, 446 (2d Cir. 1980)).
The plaintiff does not allege that the City
defendants made any public stigmatizing statements
calling her “good name, reputation, honor, or
integrity’ into question. The plaintiffs termination
letter, which the plaintiff does not allege was made
public, merely states that her “service as a
Probationary Correction Officer will no longer be
required,” and the plaintiff does not allege that the
City defendants made any public statements
concerning the reasons for her termination. (ECF No.
21 at 46.)
Moreover, the plaintiff had an available remedy
to clear her name—an Article 78 proceeding. See
Segal v. City of New York, 459 F.3d 207, 214 (2d Cir.
2006) (“the availability of an adequate, reasonably
prompt, post-termination name-clearing hearing is
sufficient to defeat a stigma-plus claim ....”; Rivera v.

28a
Community Sch. Dist. Nine, 145 F. Supp. 2d 302, 308
(S.D.N.Y. 2001) (“New York’s Article 78 proceeding
has been held to be an adequate postdeprivation
remedy.”)
Accordingly, the plaintiffs liberty claim under the
Fourteenth Amendment is dismissed.2
II. State Claims
The plaintiff alleges that “she was entitled to the
protections of Civil Service Law Section 75 before the
summary termination of her tenured
employment.” (ECF No. 21 f 123.) The City
defendants argue that this claim is time-barred and
should have been asserted in an Article 78
proceeding. (ECF No. 28 at 19-20.) Section 75
prohibits removal of a permanent employee “except
for incompetency or misconduct shown after a
hearing upon stated charges.” N.Y. Civ. Serv. Law §
75(1). Even if the claim was not time-barred, Section
2 The plaintiff alleges in her complaint that she “was signed out
because she is Hispanic and the other officers assigned to that
post were African-American females and younger than
her.” (ECF No. 211 65.) To the extent the complaint, liberally
construed, pleads an equal protection claim on the basis of race
and age under § 1983, this wholly conclusory allegation is
insufficient to state an equal protection claim. Alfaro Motors,
Inc. v. Ward, 814 F.2d 883, 887 (2d Cir. 1987) (“[I]t is well
settled that to state a civil rights claim under § 1983, a
complaint must contain specific allegations of fact which
indicate a deprivation of constitutional rights; allegations which
are nothing more than broad, simple, and conclusory
statements are insufficient to state a claim under § 1983.”)

29a
75 does not apply to probationary employees like the
plaintiff. See supra at 10-11; Finley v. Giacobbe, 79
F.3d 1285, 1297 (2d Cir. 1996) (“Under New York
law, “it is well settled that a probationary employee,
unlike a permanent employee, has no property rights
in his position and may be lawfully discharged
without a hearing and without any stated specific
reason.’” quoting Meyers v. City of New York, 622
N.Y.S.2d 529, 532 (2nd Dep’t 1995)). To the extent
the plaintiffs complaint, liberally construed, asserts
other state law claims, I decline to exercise
supplemental jurisdiction. See 28 U.S.C. § 1367(c)(3).
CONCLUSION
The Union defendants’ and Firm defendants’
motion to dismiss the amended complaint is granted.
The City defendant’s motion to dismiss is granted.
SO ORDERED.
s/Ann M. Donnelly

The Honorable Ann M. Donnelly
United States District Judge

Dated: Brooklyn, New York
January 7, 2019

